AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No. 21■X

T.E.L., A MINOR,
Petitioner,
v.

STATE OF FLORIDA,
Respondent.
X

STATE OF NEW YORK

)

COUNTY OF NEW YORK )
I, Marianna Buffolino, being duly sworn according to law and being over the age of
18, upon my oath depose and say that:
I am retained by Counsel of Record for Petitioner.
That on the 20th day of August, 2021,1 served the within Petition for a Writ of
Certiorari in the above-captioned matter upon:
Ginger Bowden Madden, State Attorney
Office of the State Attorney, 1st Judicial Circuit
190 W. Government Street
Pensacola, FL 32502-5773
Phone: 850-595-4761
gmadden@osal .org
Ashley Moody, Attorney General
Office of the Attorney General, State of Florida
PL-01 The Capitol
Tallahassee, FL 32399-0001
Phone: 850-245-0140
citizenservices@myfloridalegal.com

RECEIVED
AUG 1 \ 2021

by depositing three copies of same, addressed to each individual respectively, and
enclosed in a post-paid, properly addressed wrapper, in an official depository maintained
by the United States Postal Service, via Express Mail. An electronic version was also
served by email to each individual.

That on the same date as above, I sent to this Court forty bound copies and one
unbound copy of the within Petition for a Writ of Certiorari and three hundred dollar
filing fee check through the United States Postal Service by Express Mail, postage
prepaid.
In addition, the brief has been submitted electronically through the Court’s
electronic filing system. All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 20th day of August, 2021.

Marianna Buffolino
Sworn to and subscribed before me this 20th day of August, 2021.

Mariana Braylovskiy
Notary Public State of New York
No. 01BR6004935
Qualified in Richmond County
Commission Expires March 30, 2022

# 306752

0

COUNSEL PRESS

(800)274-3321 *(800) 359-6859
www.counselpress.com

